    Management Advisory Report



Single Audit of the State of New
Jersey for the Fiscal Year Ended
         June 30, 2011




      A-77-13-00007 | March 2013
Single Audit of the State of New Jersey for the Fiscal Year
Ended June 30, 2011
A-77-13-00007
March 2013                                                               Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported:
noncompliance issues, and
unallowable costs identified in the      •   The hours LWD submitted to SSA on Form SSA-4514 (Time
single audit to Social Security              Report of Personnel Services for Disability Determination
Administration (SSA) for resolution          Services) did not reconcile to supporting documentation.
action.
                                         •   Consultative examination (CE) payments were not always
Background                                   calculated using the rates in the approved fee schedule for the
                                             type of services performed.
The New Jersey State Auditor and
KPMG LLP conducted the single audit      Recommendations
of the State of New Jersey. SSA is
responsible for resolving single audit   We recommend that SSA:
findings related to its Disability
Insurance program. The Department        1. Verify that LWD submitted a corrected Form SSA-4514 to the
of Labor and Workforce Development          Agency.
(LWD) is the New Jersey Disability
                                         2. Confirm that DDS implemented appropriate procedures to
Determination Services’ (DDS) parent
                                            ensure accurate CE payments.
agency.
MEMORANDUM
Date:      March 21, 2013                                                            Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Jersey for the Fiscal Year Ended June 30, 2011
           (A-77-13-00007)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of New Jersey for the Fiscal Year ended June 30, 2011. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           The New Jersey State Auditor and KPMG LLP conducted the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the New Jersey State Auditor and KPMG
           LLP and the reviews performed by HHS. We conducted our review in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
           and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Jersey Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Labor and Workforce
           Development (LWD) is the New Jersey DDS’ parent agency.




           1
            State of New Jersey, Single Audit Report, Year Ended June 30, 2011
           http://www.state.nj.us/treasury/omb/finmgmt/Single_Audit/11Report.pdf (last viewed March 4, 2013).
Page 2 - Gary S. Hatcher

The single audit reported:

•      The hours LWD submitted to SSA on Form SSA-4514 (Time Report of Personnel Services
       for Disability Determination Services) did not reconcile to supporting documentation. 2 The
       corrective action plan indicates that the Form SSA-4514 submitted to SSA was not the final
       version.

•      Consultative examination (CE) payments were not always calculated using the rates in the
       approved fee schedule for the type of services performed. 3 The corrective action plan
       indicates steps were taken to ensure all changes made to the CE fee schedule are accurate.

We recommend that SSA:

1. Verify that LWD submitted a corrected Form SSA-4514 to the Agency.

2. Confirm that DDS implemented appropriate procedures to ensure accurate CE payments.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                  Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 11-16.
3
    Id. at finding 11-17.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
